C'OCKLE
2311 Douglas Street AX
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-631

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

WILLIAM P. BARR, ATTORNEY GENERAL; FEDERAL
COMMUNICATIONS COMMISSION, PETITIONERS

Vv.

AMERICAN ASSOCIATION OF

POLITICAL CONSULTANTS, INC., ET AL.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RETAIL
LITIGATION CENTER, INC. AND NATIONAL RETAIL FEDERATION AS AMICI CURIAE
SUPPORTING NEITHER PARTY in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 5008 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of March, 2020.

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL BOTARY-State of Hebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Notary Public ‘

Qudeaw- h, Gb le

Affiant 39519
